                                     SOCIAL SECURITY
MEMORANDUM

Date:   July 10, 2009                                                          Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Supplemental   Security Income Eligibility of Refugees (A-02-09-29001)


        The attached final quick response evaluation presents the results of our review. Our
        objective was to assess the Social Security Administration’s controls over Supplemental
        Security Income payments to refugees, asylees, and other non-citizens in refugee-like
        immigration status.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
QUICK RESPONSE
 EVALUATION
Supplemental Security Income
   Eligibility of Refugees

        A-02-09-29001




          July 2009
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                             Background
OBJECTIVE
Our objective was to evaluate the Social Security Administration’s (SSA) controls over
Supplemental Security Income (SSI) payments to refugees, asylees and other
non-citizens in refugee-like immigration status.

BACKGROUND
The SSI program, authorized by Title XVI of the Social Security Act, provides payments
to recipients who meet certain financial limits and are aged, blind or disabled.
Refugees, asylees and other non-citizens in a refugee-like immigration status meeting
income and resource requirements may receive SSI payments. As originally
established, SSI eligibility for these non-citizens 1 was not time-limited.

Effective with the passage of Public Law Number (Pub. L. No.) 104-193, the Personal
Responsibility and Work Opportunity Reconciliation Act of 1996, and subsequent
legislation, non-citizens 2 who entered the United States after August 22, 1996 were
eligible for SSI payments for a maximum of 7 years. Under this Law, the 7-year period
began the month the Department of Homeland Security granted immigration status.
After the 7-year period, non-citizens, with a few exceptions,3 would no longer be eligible

1
  We will refer to refugees, asylees and other non-citizens in refugee-like immigration status throughout
this report as non-citizens.
2
 The Personal Responsibility and Work Opportunity Reconciliation Act, Pub. L. No. 104-193 §431,
8 U.S.C. §1641(b) defines a qualified alien (hereinafter referred to as a “qualified non-citizen”) as (1) an
alien who is lawfully admitted for permanent residence under the Immigration and Nationality Act, (2) an
alien who is granted asylum under section 208 of such Act, (3) a refugee who is admitted to the United
States under section 207 of such Act, (4) an alien who is paroled into the United States under section
212(d)(5) of such Act for a period of at least 1 year, (5) an alien whose deportation is being withheld
under section 243(h) of such Act, (6) an alien who is granted conditional entry pursuant to section
203(a)(7) of such Act as in effect prior to April 1, 1980 or (7) an alien who is a Cuban and Haitian entrant.
Additionally, the statute provides for certain battered aliens to meet the requirements for a qualified alien,
8 U.S.C. §1641(c). Certain other aliens who are not qualified non-citizens may also get SSI. The
Balanced Budget Act of 1997, Pub. L. No. 105-33 §5302, 8 U.S.C. 1612 §(a)(2), modified eligibility from
5 years to 7 years, and became law on August 5, 1997. The Non-citizen Benefit Clarification and Other
Technical Amendments Act of 1998, Pub. L. No. 105-306 §2, which extends SSI eligibility to non-qualified
non-citizens who were receiving SSI on August 22, 1996, became law on October 28, 1998.
3
  According to SSA, Program Operations Manual System (POMS) SI 00502.100 Basic SSI Alien Eligibility
Requirements – a non-citizen is exempt from the SSI non-citizen provisions of P.L. 104-193 and its
amendments if one of the following conditions is met: (1) the individual was receiving SSI after July 1996
based on an application filed before January 1, 1979 and there is no convincing evidence that the
recipient is an alien who would be ineligible under the P.L. 104-193; (2) the individual is an American
Indian born in Canada and he/she is at least 50 percent Indian blood; or (3) the individual is a non-citizen
member of a federally recognized Indian tribe.


Supplemental Security Income Eligibility of Refugees (A-02-09-29001)                                         1
for SSI payments unless they became naturalized United States citizens or showed they
met criteria to remain eligible for SSI payments. The 7-year limit on payments did not
affect blind or disabled non-citizens already receiving SSI payments or those who were
already lawfully residing in the United States on or before August 22, 1996.

The SSI Extension for Elderly and Disabled Refugees Act of 2008 increased the
maximum number of years certain qualified non-citizens can receive benefits from 7 to
9 through Fiscal Year 2011. 4 In comments in support of the Act, a Congressman noted
that SSA estimated that about 20,000 refugees would have their benefits restored over
the following 3 years because of this legislative change.

Non-citizens applying for SSI must provide evidence of their immigration status to
determine their eligibility for payments. SSA staff records the applicant’s immigration
status based on the evidence provided. SSA’s Modernized Supplemental Security
Income Claims System (MSSICS) uses the information input by staff to derive the
appropriate alien eligibility reason (AER) code. SSA staff can also manually add an
AER code to the Supplemental Security Record (SSR) based on evidence provided by
SSI applicants or recipients.

The AER code on the SSR indicates whether a non-citizen’s eligibility for SSI payments
is time-limited or based on a provision that permits continual SSI payments as long as
other eligibility factors are met. There are nine AER codes, as described in the
following table.




4
 The SSI Extension for Elderly and Disabled Refugees Act, Pub. L. No. 110-328 §2, 8 U.S.C.
§1612(a)(2)(M)(i), generally extends SSI eligibility for 2 years for refugees, asylees, and other qualified
humanitarian immigrants, including those who had benefits suspended in the past. Benefits can be
extended for additional time for those awaiting a decision on a pending application for citizenship. These
policies will be in effect for 3 years (Fiscal Years 2009 through 2011).


Supplemental Security Income Eligibility of Refugees (A-02-09-29001)                                      2
      AER Code                                           Description

          1         Qualified non-citizen admitted to the United States as a refugee

          2         Qualified non-citizen whose deportation has been withheld

          3         Qualified non-citizen lawfully admitted for permanent residence with 40 work credits

          4         Qualified non-citizen on active duty in the military or honorably discharged veterans
                    Qualified non-citizen who is a spouse/widow(er) of an active duty military or
          5
                    honorably discharged veteran
                    Qualified non-citizen who is a child of an active duty military or honorably discharged
          6
                    veteran
                                            5
          7         Grandfathered qualified non-citizen indicator

          8         Aged non-citizen requiring a disability determination

          9         Grandfathered nonqualified 6 non-citizen receiving SSI on August 22, 1996 or earlier


Each month, the Database Analysis (DABA) 7 system selects SSRs of non-citizens for
termination when their eligibility for SSI expires. The AER code, citizenship alien code
and alien entry date 8 in the SSR are used to determine whether SSI payments should
continue or terminate. If payments are time-limited, the alien entry date is used to
determine when a non-citizen’s eligibility expires.

To accomplish our objective, we obtained a data extract from 1 segment of the SSR9 of
4,437 active records (as of August 1, 2008) comprising non-citizens. From this
population, we selected multiple samples of records for multiple tests of the
effectiveness of SSA’s controls over SSI payments made to non-citizens. More
specifically, we tested the completeness and accuracy of the data SSA used to
determine non-citizens’ SSI eligibility and the accuracy of payments made to

5
 SSA, POMS SM 01005.642, Alien Eligibility Code and Begin Date (AQ), defines “grandfathered” as a
qualified alien who was receiving SSI payments on August 22, 1996.
6
 SSA, POMS SI 00502.153, SSI Eligibility for Nonqualified Aliens Who Were Receiving SSI on 8/22/96
— 1998 “Grandfathering” Legislation, defines “grandfathered” as a nonqualified alien who was receiving
SSI payments on August 22, 1996 does not lose SSI eligibility effective October 1, 1998, provided all
other factors of eligibility continue to be met.
7
 The DABA system selects records 2 calendar months before the month of termination. DABA also
sends notices to SSI recipients informing them that their SSI payments are stopping and provides the
criteria for remaining eligible for SSI payments. The notices also include the recipient’s appeals rights.
8
  According to SSA, POMS SI 00502.106, Time-Limited Eligibility for Certain Aliens, the 7-year period
begins with the month the Department of Homeland Security grants the immigration status. In general,
the status attained date for asylees and Cuban/Haitian entrants can be the same or later than the alien’s
entry date to the United States posted on the SSR.
9
    One segment of the SSR represents 5 percent of the total population.


Supplemental Security Income Eligibility of Refugees (A-02-09-29001)                                          3
non-citizens. In total, we reviewed 383 records. We forwarded cases we believed were
questionable to SSA for verification and a determination of the cause of any
inaccuracies. Additional details of our scope and methodology are found in Appendix B.




Supplemental Security Income Eligibility of Refugees (A-02-09-29001)                4
                                                     Results of Review
We found SSA’s controls over SSI payments to refugees, asylees and other non-
citizens in refugee-like immigration status were generally effective. SSA made proper
payments to eligible non-citizens in almost all cases. We identified a few cases where
non-citizens beyond their 7-year eligibility period received SSI payments because of
inaccurate AER codes in the SSR. We found 5 of the 383 recipients we reviewed
received SSI payments after their 7-year eligibility period and were improperly paid
$11,386.

ACCURACY OF AER CODES

The AER codes for three of the five recipients who received payments beyond the
7-year period of eligibility were incorrectly recorded on the SSR. The three recipients’
records contained AER codes indicating their SSI payments were not time-limited,
though they should have been limited to the 7-year period.

• Two of the recipients’ AER codes were recorded as ‘7,’ indicating their SSI eligibility
   was based on a “grandfathered” status. However, the two recipients’ dates of entry
   into the United States were later than August 1996, so they were not eligible for the
   “grandfathered” status their records indicated. Their payments should have stopped
   7 years after the Department of Homeland Security granted them immigration status.
   The two recipients received payments for 9 and 11 months past their 7-year time
   limit and were improperly paid $5,076 and $689, respectively.

• The third recipient had an AER code ‘4,’ which meant her SSI eligibility was based
   on active duty in the military or an honorably discharged veteran status. The
   payments for SSI recipients with an AER code ‘4’ are not limited to the 7-year time
   period. However, the recipient should have had an AER code of ‘1’ since she
   entered the United States as a refugee, and her SSI payments should have been
   limited to 7 years. She obtained her alien status in May 2001. Based on this date,
   SSA should have stopped payments in June 2008, but payments continued for an
   additional 4 months resulting in $4,196 in improper payments.

We found another case in addition to the three discussed above that contained an
incorrect AER code. The recipient’s AER code was recorded as ‘7,’ indicating his SSI
eligibility was based on a “grandfathered” status even though his date of entry into the
United States was later than August 1996. The Agency agreed with our assessment
that the AER code was inaccurate.

After its review of our analysis, the Agency completed an unscheduled redetermination
on this case in May 2009. The recipient had not had a redetermination since his SSI
payments were effectuated in 2001. During the redetermination process, SSA
discovered that the recipient became a naturalized U.S. citizen in 2003. As a citizen,
the recipient was then eligible to receive SSI payments without time limitation, meeting


Supplemental Security Income Eligibility of Refugees (A-02-09-29001)                        5
all other eligibility factors. Although the recipient’s SSR contained inaccurate alien
information that made it appear he received SSI payments for which he was not eligible,
the recipient actually had attained U.S. citizenship status before the 7-year expiration on
SSI payments to non-citizens. Accordingly, the recipient did not receive any improper
payments even though the AER coding was inaccurate.

Additional Errors

We identified two cases where non-citizens had the appropriate AER codes, but they
still received payments beyond their period of eligibility. We were able to identify the
cause of the error in the first case, but were not able to identify the cause in the second
case. We conferred with SSA staff on the second case, but the staff was unable to
determine the cause of the improper payment at the time of our review. The details of
each case are explained below.

• The first recipient’s SSI payments should have ceased in December 2006 because
     she attained alien status 10 in November 1999. She continued to receive SSI
     payments until February 2007—2 months beyond the 7-year limit—resulting in
     $727 in improper payments. According to SSA, in December 2006, the DABA
     system was not programmed to select alien records for termination. Therefore, this
     recipient was not selected for termination when her SSI eligibility expired in
     December 2006. SSA resolved the system issue and reported this situation had not
     recurred.

• The second recipient’s SSI payments should have ceased in July 2006 because he
     attained alien status in June 1999. His SSI payments stopped in August 2006
     resulting in an overpayment of $698. We referred this case to SSA, but staff was
     unable to determine why the DABA system failed to timely terminate the SSI
     payments for this recipient.




10
  SSA, POMS SM 01601.475, Person Related Data – PRSN. Alien status attained date represents the
date the alien attained his/her specific status.


Supplemental Security Income Eligibility of Refugees (A-02-09-29001)                              6
                                         Matters for Consideration
The DABA system uses the AER code in the SSR to select records of non-citizens for
termination when their eligibility for SSI expires. Our work demonstrated that SSA’s
DABA system generally selects the SSRs of non-citizens for termination in a timely
manner. However, inaccurate AER codes led to a few improper payments.

To ensure only eligible non-citizens are receiving SSI payments, SSA staff should
review the accuracy of a recipient’s AER code for those with an alien status attained
date after August 22, 1996 and an AER code indicating their SSI payments are not
time-limited when completing redeterminations. Generally, SSI payments with an alien
status attained date after August 22, 1996 should be limited to a 7-year period. Also, to
ensure accurate payment decisions are made, SSA should consider reinforcing the
importance of entering accurate immigration status information into the SSR with its
staff.

The SSI Extension for Elderly and Disabled Refugees Act, effective October 1, 2008,
increased the maximum number of years qualified non-citizens can receive benefits
from 7 to 9. Additionally, the Act authorized a third year of payments if citizenship
applications are pending or approved. As SSA is in the planning and analysis phase of
the project to determine what changes to the DABA and other systems will be required
as a result of the new legislation, we believe our review provides useful information for
SSA to meet its objectives and minimize improper payments.

SSA has already corrected one of the five cases we identified, and the remaining
four cases have been referred to SSA for development. 11 Particular attention should be
given to the case where the cause of the improper payment was not identified. SSA
should continue work to establish the cause and whether the payment error has
implications beyond this one case in determining the SSI eligibility of non-citizens.




11
     We previously provided SSA with the details of each case.


Supplemental Security Income Eligibility of Refugees (A-02-09-29001)                        7
                                             Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C - OIG Contacts and Staff Acknowledgments




Supplemental Security Income Eligibility of Non-citizens (A-02-09-29001)
                                                                       Appendix A

Acronyms

    AER                 Alien Eligibility Reason

    DABA                Database Analysis

    MSSICS              Modernized Supplemental Security Income Claims System

    OIG                 Office of the Inspector General

    Pub. L. No.         Public Law Number

    POMS                Program Operations Manual System

    SSA                 Social Security Administration

    SSI                 Supplemental Security Income

    SSR                 Supplemental Security Record




Supplemental Security Income Eligibility of Refugees (A-02-09-29001)
                                                                                  Appendix B

Scope and Methodology
To meet our objective, we:

• Reviewed applicable Federal laws and regulations as well as Social Security
  Administration (SSA) policies and procedures regarding non-citizens and the
  Supplemental Security Income (SSI) program.

• Obtained a data extract of 4,437 records from 1 segment of the Supplemental
  Security Record (SSR) containing refugees, asylees and other non-citizens with a
  date of entry into the United States of August 2001 1 or earlier and a non-terminated
  SSR. The details of the alien codes in our sample selection are shown in Table 1.

                Table 1: Summary of Citizenship Alien Codes in Data Extract
                             Type of Alien             Number of Records
                          Refugee                             3,655
                         Asylee                                     359
                         Cuban/Haitian Entrant                      356
                         Deportation Withheld                        58
                         Amerasian Immigrant                          9
                        Total                                     4,437

• Created five categories for review from the population.
    1) Randomly selected 50 records from the total population to determine alien
       eligibility and whether payments were terminated correctly and timely.
    2) Identified 507 records from the total population with an entry date into the United
       States after August 1996 and randomly selected another 50 records to review
       from this group.
    3) Analyzed Alien Eligibility Reason (AER) codes on sampled records from the
       original data extract. From the population, we identified 3,419 records with an
       AER code and selected 183 records to review. 2 The details of the number of


1
 We chose this date because SSI payments for those who entered the United States in August 2001
would generally stop no later than fall 2008, which is 7 years after they entered the United States.
2
 There are nine AER Codes. Our data extract did not contain AER codes 5 and 6. Code 5 is a
spouse/widow(er) of an active duty military or honorably discharged veteran. Code 6 is a child of an
active duty military or honorably discharged veteran. We selected the first 50 records in each AER
category in ascending Social Security number order. When a specific code included 50 or fewer records,
we reviewed all the records with that code.


Supplemental Security Income Eligibility of Refugees (A-02-09-29001)                                   B-1
       records for each AER code in our data extract and the number of records
       selected from each code are shown in Table 2.

             Table 2: Details of Sample Records Reviewed With an AER Code

                                                             Number of
                                                            Records in
                                                            Data Extract    Sample
          AER Code        Description of AER Code          Per AER Code      Size
                 1            Qualified non-citizen
                                 admitted to the                   640         50
                          United States as a refugee
                 2        Qualified non-citizen whose
                             deportation has been                      9        9
                                     withheld
                 3            Qualified non-citizen
                              lawfully admitted for
                                                                       1        1
                           permanent residence with
                                 40 work credits
                 4          Qualified non-citizen on
                          active duty in the military or
                                                                       5        5
                             honorably discharged
                                     veterans
                 7          Grandfathered qualified
                                                                 2,696         50
                                  alien indicator
                 8           Aged alien requiring a
                                                                       50      50
                            disability determination
                 9        Grandfathered nonqualified
                             alien receiving SSI on                    18      18
                                8/22/96 or earlier
         Total                                                   3,419        183

   4) Identified 1,018 records without an AER code from the original data extract and
      selected 50 in current payment status to review.
   5) Selected 50 records not in current payment status from the 1,018 records without
      an AER code to review.

In total, we reviewed 383 sample records. The details of our sample selection are
shown in Table 3.




Supplemental Security Income Eligibility of Refugees (A-02-09-29001)                 B-2
                   Table 3: Details of Sample Records Selected for Review
                     Category of Review                            Population        Sample Size
    Eligibility and Payment Expiration
       Random Selection from Population                               4,437                50
       Post August 1996 Entry Date                                     507                 50
    Alien Eligibility Reason Codes
       Blank AER Code in Current Pay (PSY C01)                         637                50
       Blank AER Code and PSY Other Than C01                           381                50
       Specific AER Codes                                             3,419               183
    Total                                                                                 383

• Determined whether each recipient was eligible for an SSI payment based on the
  information recorded in SSA’s systems. Specifically, we reviewed the date of entry,
  alien code, SSI disability reason (aged, blind, disabled) and AER code posted on
  each record to determine whether the record supported continued eligibility for SSI
  payments. If the recipient filed for aged SSI payments, we determined whether the
  recipients were age 65 when they filed their application. If the recipient filed for
  disability payments, we determined whether disability information was recorded on
  the SSR.

• Determined whether each recipient’s payment eligibility expired. We reviewed each
  record to determine whether SSI payments to the recipients stopped before
  August 2008 for non-citizens subject to the Personal Responsibility and Work
  Opportunity Reconciliation Act of 1996. If payments continued after August 2008, we
  determined whether the recipients’ status changed, allowing for the continuation of
  payments. Specifically, we reviewed the payment status code 7 years and 1 month
  after the date of entry 3 for each record in our sample with a date of entry into the
  United States of August 1996 or later.

• Determined whether SSA made the proper payment decision, based on the AER
  code, for records with payments beyond the 7-year time limit. We reviewed the SSR,
  electronic data in SSA’s Modernized Supplemental Security Income Claims System
  (MSSICS) or electronic data in other SSA systems for information to support the AER
  code recorded to determine whether the Agency made the proper payment decision.

• Reviewed the MSSICS code for records with no AER code to determine whether the
  record was established in MSSICS or outside MSSICS with a direct manual input.

• Referred questionable cases to SSA for review to confirm our conclusions and to
  determine the cause of any inaccurate records and/or improper payments.


3
  According to SSA, Program Operations Manual System SI 00502.106, Time-Limited Eligibility for
Certain Aliens, the 7-year period begins with the month the Department of Homeland Security grants the
immigration status. In general, the status attained date for asylees and Cuban/Haitian entrants can be
the same or later than the alien’s entry date to the United States posted on the SSR.


Supplemental Security Income Eligibility of Refugees (A-02-09-29001)                                B-3
We did not validate the authenticity of the documentation used by SSA as proof of
refugee status. We determined the data used for our review were sufficiently reliable
given our objective and their intended use and should not lead to incorrect or
unintended conclusions.

We performed our review in the New York Audit Division from October 2008 through
March 2009. The entities reviewed were the Offices of Retirement and Disability Policy,
Income Security Programs, and Eligibility and Enumeration Policy, Eligibility and
Evidence. We conducted our review in accordance with the President’s Council on
Integrity and Efficiency’s Quality Standards for Inspections. 4




4
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No.
110-409 § 7, 5 U.S.C. App. 3 § 11.


Supplemental Security Income Eligibility of Refugees (A-02-09-29001)                                  B-4
                                                                       Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Tim Nee, Director, New York Audit Division

   Neha Smith, Acting Audit Manager

Acknowledgments
In addition to those named above:

   Susan Yuen, Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-02-09-29001.




Supplemental Security Income Eligibility of Refugees (A-02-09-29001)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
